                                                   NATIONAL SCIENCE FOUNDATION
                                                   .OFFICEOF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 110030007                                                                        Page 1 of 1



          The OIG initiated an investigation based on a review l that found questionable expenses associated
          with an institution's2 NSF award. 3 The investigation found the institution violated the tenns ofthe
          award by issuing stipends in excess of the $10,000 limit per student. The institution overcharged
          NSF in the amount of $54,250, as a result of issuing stipends exceeding the $10,000 limit. NSF
          reduced funding for the award by $54,250 to offset the overcharge.                           '

          We found no signs of fraud and proper administrative action was taken. Accordingly, this
          case is closed.




NSF OIG Form 2 (11102)
